SEC.gov |  Equal Employment Opportunity Office
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Equal Employment Opportunity Office
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
Equal Employment Opportunity Office
Audit Report No. 224November 2, 1996
SUMMARY
Our audit of the Equal Employment Opportunity (EEO) program identified several possible improvements, including: creating an EEO Committee; increasing use of alternative dispute resolution; informing supervisors of the duty to cooperate with counseling; and emphasizing recruitment efforts for under-represented groups protected by the EEO laws.
The EEO Office and the Office of Administrative and Personnel Management generally concurred with our recommendations.
OBJECTIVES AND SCOPE
Our objectives were to obtain information about the EEO program for audit planning, and to identify possible improvements to the program. We interviewed EEO staff and managers, and reviewed relevant documentation, including program guidance and selected case files. We did not conduct extensive tests of management controls.
The audit was performed between January and August, 1995, in accordance with generally accepted government auditing standards.
BACKGROUND
Discrimination in employment because of race, color, religion, sex, national origin, age, and disability is prohibited under EEO statutes, regulations, and executive orders, as well as under personnel laws and regulations. The Equal Employment Opportunity Commission (EEOC) is responsible for oversight of EEO programs in the Federal government.
The Office of Equal Employment Opportunity oversees the
Commission's EEO program. The Director of the Office reports to the Chairman. The Office is
composed of two branches: Compliance and Affirmative Employment.
The Compliance Branch counsels employees and investigates
discrimination complaints. Collateral duty staff throughout the Commission serve as counselors,
under the general oversight of the branch. EEO investigations are conducted by investigative
staff in the branch. The EEO Director issues decisions on discrimination complaints. These
decisions are subject to further review by the EEOC and the courts.
The Affirmative Employment Branch identifies barriers to advancement faced by protected groups. It coordinates actions to remove the barriers, as well as to recruit members of under-represented groups. The Branch also prepares an annual report to the EEOC regarding these issues.
The Commission has several special emphasis programs, including the Federal Women's Program, the Hispanic Employment Program, and the Black Employment Program. The programs are run by collateral duty managers and sponsored by the EEO Office. The programs promote diversity in the work place through a variety of activities.
Each office and division is responsible for complying with the EEO statues and regulations. Managers and supervisors are required to have a performance element on human resource management which includes compliance with EEO regulations.
AUDIT RESULTS
We identified several possible improvements to the EEO program, as described below.
Communications
The Commission does not have a senior level management committee devoted to EEO issues. An EEO Committee would provide a forum for discussing crosscutting issues, and improve communication between the EEO office and other Commission offices.
At a minimum, the Committee would include representatives from the Offices of EEO, Personnel and Administrative Management,
the General Counsel, and the Division of Enforcement (which oversees the regions),
as well as the special interest group managers. The EEO Office would develop the agenda
for Committee meetings, and publicize information from them.
Recommendation A
The EEO Office should establish an EEO Committee as discussed above.
Recommendation B
The EEO Office should disseminate the agenda before, and distribute a synopsis of issues discussed after, the EEO Committee meetings to all Commission offices.
Alternative Dispute Resolution
Under the Alternative Dispute Resolution Act (Public Law 101-552), the Commission is encouraged to use alternative dispute resolution (ADR) where appropriate. ADR includes arbitration, mediation, and other consensual methods of resolving disputes.
ADR appears appropriate for resolving personnel disputes that otherwise could result in EEO complaints. Based on our interviews with EEO staff, employees sometimes filed complaints because they felt no adequate alternative was available.
The Commission recently established an ADR Task Force, which is expected (if Congress approves) to lead to the creation of a new ADR Office, the Office of the Ombudsman. This action implements a recommendation in a prior draft of this report. Ombudsman staff would use ADR techniques to help employees resolve work-related disputes. See the comments in the Appendix.
ADR also appears appropriate as an option for resolving some EEO complaints. Formal complaint procedures involve many procedural stages, and can be both resource intensive and adversarial. ADR is intended to be quick, cheap, and effective.
Recommendation C
The Commission should establish an ADR office for non-EEO personnel disputes and publicize its procedures.
Recommendation D
The Office of Equal Employment Opportunity should establish and publicize ADR procedures for EEO-related disputes. It should require EEO counselors to inform employees about these procedures during counseling.
Appraisal of Personnel Operations
The EEOC requires agencies to appraise their personnel operations to ensure their compliance with EEOC regulations. The Commission has not yet performed this appraisal. However, OAPM indicated that it has done some of the required analysis.
Recommendation E
The EEO Office and OAPM should periodically appraise the Commission's personnel operations to determine their compliance with EEOC regulations.
Counselors
We interviewed twenty-four current and three former EEO collateral duty counselors. A number of these counselors indicated that their supervisors were not supportive of their counseling (e.g., work assignments were adversely affected).
Possibly, supervisors may be concerned
that counseling reduces the time available for the counselor's primary work.
However, under EEOC regulations, agencies are required to ensure that
all employees fully cooperate with EEO counselors.
Recommendation F
The EEO Office should consider alternatives to ensure that counseling does not significantly interfere with counselors' primary work.
Recommendation G
The EEO Office should inform all division directors, regional directors, and office heads of their supervisors' duty to cooperate with counseling. Counselors should notify the EEO Office if their supervisors are not supportive.
Affirmative Employment
The Commission's fiscal year 1994 Affirmative Employment Report indicated that certain groups protected by the EEO laws were under-represented at the Commission. For example, only 2% of the GS-14 level staff were Hispanic, compared to 8% of the corresponding work force.
Recommendation H
The EEO Office and OAPM should encourage hiring officials throughout the Commission to establish affirmative employment objectives for the correction of employment imbalances.
Guidance
The Commission has issued an EEO employee handbook (SECHDBK 27-1, August 1, 1991) and EEO regulations (SECR 27-1, July 8, 1986, and SECR 27-2, June 15, 1992). This guidance is out of date; e.g., the EEOC issued new regulations (29 CFR 1614) effective October 1992.
Recommendation I
The EEO Office should issue updated EEO guidance.
Counselor files
We sampled ten files submitted by EEO counselors. They contained the required information, but were not well organized, which made finding specific documents more difficult.
Recommendation J
The EEO Office should review files submitted by counselors to ensure that they are adequately organized. It should provide guidance to counselors on file organization.
Telephone Listings
Twelve of the thirty-two EEO counselors were not listed in the Commission's phone book.
Recommendation K
When updating the phone book, OAPM should request an updated list of current EEO counselors from the EEO Office for inclusion in each revision of the phone book.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us